Certificate of Service
8/6/2020
Herewith are 40 of the paperbooks
No.
In the

Supreme Court of the United States

PETITION FOR WRIT OF CERTIORARI

I hereby certify that I am this day serving the foregoing
document (3) copies upon the person(s) and in the manner indicated
below. Service by first-class mail addressed as follows:
Christopher M. Curran
WHITE & CASE
701 13th Street, N.W.
Washington, DC 20005-0000

Susanna R. Allen
WILLIAMS & CONNOLLY
725 12th Street, N.W.
Washington, DC 20005-0000
Respectfully Submitted,
ROD CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

Certification of Word Count
No.
In the

Supreme Court of the United States

PETITION FOR WRIT OF CERTIORARI

ROD CURRY
CURRY & TAYLOR LLC
1726 NEVADA AVE NE
ST. PETERSBURG, FL 33703
(202) 350-9073

